5

i.

Case: 19-1810

Filed: 04/23/2020

Document: 5

Pages: 1

V

Jshths Olmtrt uf Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted April 17, 2020
Decided April 23,2020
Before
WILLIAM J. BAUER, Circuit Judge
AMY C. BARRETT, Circuit Judge
No. 19-1810
ANTHONY G. MEYERS,
Peti tioner-Appel lan t,
v.
CATHY JESS,
Respondent-Appellee.

Appeal from the United States District
Court for the Eastern District of Wisconsin.
No. 16-CV-249
David E. Jones,
Magistrate Judge.
ORDER

Anthony Meyers has filed a notice of appeal from the denial of his petition under
28 U.S.C. § 2254 and an application for a certificate of appealability. We have reviewed
the final order of the district court and the record on appeal. We find no substantial
showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, Meyers's request for a certificate of appealability is DENIED.

‘V

APPENDIX-B DECISION AND ORDER DENYING
PETITION FOR WRIT OF HABEAS CORPUS
DATED MARCH 2019.

#

$
111

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

ANTHONY GAGE MEYERS
Petitioner,
Case No. 16-CV-249

v.
JUDY P. SMITH,
Respondent.

DECISION AND ORDER
DENYING PETITION FOR WRIT OF HABEAS CORPUS

In 2009, a jury in Winnebago County Circuit Court convicted Anthony Gage
Meyers of first-degree reckless homicide and misdemeanor bail jumping. Mr.
Meyers challenged his conviction in post-conviction proceedings, arguing that there
was insufficient evidence to convict him of first-degree reckless homicide. The
Circuit Court denied his claim following a hearing, the Wisconsin Court of Appeals
affirmed, and the Wisconsin Supreme Court denied review. Mr. Meyers is currently
serving thirty years of initial confinement and ten years of extended supervision at
the Oshkosh Correctional Institution in Oshkosh, Wisconsin.
In 2016, Mr. Meyers filed a petition for a writ of habeas corpus pursuant to
28 U.S.C. § 2254, alleging that his custody is unconstitutional because he was
convicted on insufficient evidence and received ineffective assistance of counsel. The
Respondent opposes the petition, arguing that Mr. Meyers has failed to meet his
'*

burden of proving that the Wisconsin Court of Appeals’ decision is contrary to, or an

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page lot 18 Document 23

Si*

unreasonable application of clearly established federal law, or based on an
unreasonable determination of the facts in light of the evidence presented. For the
following reasons, the Court will deny Mr. Meyer’s petition.
I.

Background
Anthony Gage Meyers was found guilty by a jury sitting in Winnebago County

for the fatal stabbing of his mother’s boyfriend, Shon Potschaider. Petition for Writ
of Habeas Corpus 2. Potschaider, a former prison inmate, began the physical
altercation that resulted in his death by beating Mr. Meyers and putting him in a
chokehold moments before the stabbing occurred. Petitioner’s Brief 10. Mr-Meyers
was subsequently convicted of first-degree reckless homicide and sentenced to thirty
years of initial confinement and ten years of extended supervision. Pet. 2. He is
currently incarcerated at Oshkosh Correctional Institution. Pet. 2.
In May 2012, Mr. Meyers filed a direct appeal of conviction claiming that
there was insufficient evidence to convict him of first-degree reckless homicide and
that he received ineffective assistance of counsel. Pet. 3. The circuit court denied his
appeal. Thereafter, the Wisconsin Court of Appeals affirmed, finding that Mr.
Meyers was convicted upon sufficient evidence and that his counsel rendered
effective assistance. Court of Appeals Decision 10. The Wisconsin Supreme Court
denied Mr. Meyers’s petition for review in May 2014. Pet. 3.
Mr. Meyers also sought post-conviction relief in the Wisconsin state courts,
alleging that his post-conviction counsel provided constitutionally ineffective
assistance. Pet. 4. The Winnebago County Circuit Court denied his post-conviction

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 2 of 18 Document 23

motion and the Wisconsin Court of Appeals denied his appeal. Id. In January 2016,
the Wisconsin Court of Appeals denied Mr. Meyers’s state petition for a writ of
habeas corpus. Pet. 5.
On March 1, 2016, Mr, Meyers filed a federal habeas corpus petition
pursuant to 28 U.S.C. § 2254 asserting four grounds for relief: (1) there was
insufficient evidence of “utter disregard for human life” to support a first-degree
reckless homicide conviction; (2) trial counsel should have requested additional
and/or different jury instructions on self-defense; (3) trial counsel was '
constitutionally ineffective; and (4) the jury instruction on first-degree reckless
homicide improperly placed the burden on him to prove that he acted lawfully in
self-defense. Pet. 6-9. Mr. Meyers was allowed to proceed on all four claims. See
Rule 4 Order, ECF No. 4. The Petition is now fully briefed and ready for disposition.
See Brief in Support of Petitioner’s Habeas Corpus Petition, ECF No. 11; Brief
Opposing Petition for Writ of Habeas Corpus, ECF No. 16; and Reply Brief in
Support of Petitioner’s Habeas Corpus Petition, ECF No. 17.
II.

Standard of Review
Federal habeas corpus review is governed by the Antiterrorism and Effective

Death Penalty Act of 1996, Pub. L. No. 104-132, 110 Stat. 1214. Under AEDPA, a
prisoner in custody pursuant to a state-court judgment of conviction is entitled to
federal habeas relief only if he is “in custody in violation of the Constitution or laws
or treaties of the United States.” 28 U.S.C. § 2254(a). With respect to claims
adjudicated on the merits in state court, a federal court can grant an application for

■S

■

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 3 of 18 Document 23

a writ of habeas corpus “only if the state court’s decision was contrary to clearly
established Supreme Court precedent, involved an unreasonable application of such
precedent, or was based on an unreasonable determination of the facts in light of
the evidence presented in state court.” Promotor v. Pollard, 628 F.3d 878, 888 (7th
Cir. 2010) (citing 28 U.S.C. § 2254(d)); see also White v. Woodall, 134 S. Ct. 1697,
1702 (2014).
“A legal principle is ‘clearly established’ within the meaning of [§ 2254(d)(1)]
only when it is embodied in a holding of [the Supreme Court].” Thaler u. Haynes,
559 U.S. 43, 47 (2010) (citing Carey v. Musladin, 549 U.S. 70, 74 (2006); Williams v.
Taylor, 529 U.S. 362, 412 (2000)). A state-court decision is “contrary to” clearly
established federal law if “the state court arrives at a conclusion opposite to that
reached by [the Supreme Court] on a question of law or if the state court decides a
case differently than [the Supreme Court] has on a set of materially
indistinguishable facts.” Williams, 529 U.S. at 412-13 (opinion of O’Connor, J.).
Similarly, a state-court decision results in an “unreasonable application” of
clearly established federal law when that court either “identifies the correct
governing legal rule from [Supreme Court] cases but unreasonably applies it to the
facts of the particular state prisoner’s case” or “unreasonably extends a legal
principle from [Supreme Court] precedent to a new context where it should not
apply or unreasonably refuses to extend that principle to a new context where it
should apply.” Id. at 407. A writ of habeas corpus may not issue under the
“unreasonable application” clause “simply because the federal court concludes that

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 4 of 18 Document 23

■s,

the state court erred. Rather, the applicant must demonstrate that the state court
applied the Supreme Court’s precedent in an objectively unreasonable manner.”
Kubsch u. Neal, 838 F.3d 845, 859 (7th Cir. 2016) (citing Woodford v. Visciotti, 537
U.S. 19, 24-25 (2002)). Thus, the petitioner “must show that the state court’s ruling
. . . was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fair-minded disagreement.”
Kubsch, 838 F.3d at 859 (quoting Harrington v. Richter, 562 U.S. 86, 103 (2011)).
“[A] state-court factual determination is not unreasonable merely because the
federal habeas court would have reached a different conclusion in the first
v.

instance.” Wood v. Allen, 558 U.S. 290, 301 (2010). For purposes of federal habeas
review, state-court factual determinations are entitled to “substantial deference.”
Brumfield v. Cain, 135 S. Ct. 2269, 2277 (2015). To obtain relief under § 2254(d)(2),
a petitioner must demonstrate that the state-court decision “rests upon fact-finding
that ignores the clear and convincing weight of the evidence. McManus v. Neal, 779
F.3d 634, 649 (7th Cir. 2015) (quoting Goudy v. Basinger, 604 F.3d 394, 399 (7th
Cir. 2010)); see also 28 U.S.C. § 2254(e)(1). “The decision must be ‘so inadequately
supported by the record as to be arbitrary and therefore objectively unreasonable.’”
Alston v. Smith, 840 F.3d 363, 370 (7th Cir. 2016) (quoting Ward u. Sternes, 334
F.3d 696, 704 (7th Cir. 2003)).
When applying the above standards, federal courts look to “the ‘last reasoned
state-court decision’ to decide the merits of the case, even if the state’s supreme

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 5 of 18 Document 23

court then denied discretionary review.” Dassey v. Dittmann, 877 F.3d 297, 302 (7th
Cir. 2017) (quoting Johnson v. Williams, 568 U.S. 289, 297 n.l (2013)).
III.

Discussion
Mr. Meyers maintains that he is entitled to habeas relief because (1) he was

convicted upon insufficient evidence; and (2) his trial counsel rendered ineffective
assistance, in violation of the U.S. Constitution. The Respondent argues that Mr.
Meyers has failed to meet his burden of proving that the Wisconsin Court of
Appeals’ decision denying his writ of habeas corpus is contrary to, or an
unreasonable application of, clearly established federal law.
A. Sufficiency of the evidence
Mr. Meyers argues that he was convicted of first-degree reckless homicide in
violation of his due process rights guaranteed by the Fifth and Fourteenth
Amendments of the United States Constitution, and that the state Court of Appeals’
t

decision affirming his conviction was an unreasonable application of Jackson v.
Virginia.
In Jackson v. Virginia, the Supreme Court of the United States identified the
standard of review for sufficiency of the evidence claims, stating that the relevant
question is whether after viewing the evidence in the fight most favorable to the
prosecution, any rational trier of fact could have found the essential elements of the
crime beyond a reasonable doubt.” 433 U.S. 307, 319 (1979).
Mr. Meyers was prosecuted under Wis. Stat. § 940.02(1), which states, whoever
recklessly causes the death of another human being under circumstances which

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 6 of 18 Document 23

show utter disregard for human life is guilty of a Class B felony.” Wis. Stat.
§ 940.02. Mr. Meyers does not contest that he was the cause of Shon Postschaider’s
death, but instead argues that the prosecution lacked sufficient evidence that Mr.
Meyers acted with “utter disregard for human life” to sustain his conviction of firstdegree reckless homicide. Pet’r’s Br. 8. Mr. Meyers insists that he showed some
regard for human life in the totality of the circumstances, which the appellate court
failed to consider on direct appeal. Pet’r’s Br. 8-9. He cites Miller v. State as
support: “[c]ourts consider the totality of the circumstances when determining
whether the defendant showed some regard for life, which may include conduct
''S*

occurring before, during and after the commission of the criminally reckless act
itself.” 320 Wis. 2d 724, 730 (Wis. Ct. App. 2009). Mr. Meyers argues that his
“uncontested actions of calling for help, staying on the scene, and continuing to ask
about the well-being of Shon show some regard for human life” and should have
been considered by the Court of Appeals as these actions “negate the aggravated
element of utter disregard for human life.” Pet’r’s Reply Br. 8.
In denying Mr. Meyers’s appeal, the Wisconsin Court of Appeals followed State
u. Routon, which held that a conviction will stand unless the evidence is so lacking
in probative value and force that no reasonable finder of fact could have found guilt
beyond a reasonable doubt. 304 Wis. 2d 480, 491 (Wis. Ct. App. 2007). This
comports with Jackson. Therefore, the Wisconsin Court of Appeals applied the
correct rule, and its decision is not “contrary to” federal law.

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 7 of 18 Document 23

The Court of Appeals also applied the standard reasonably. After identifying the
correct standard, the Court of Appeals examined the trial transcript and
determined that there was more than enough evidence for a reasonable trier of fact
to find Mr. Meyers guilty beyond a reasonable doubt. Ct. App. Decision 4. The jury
heard evidence from witnesses regarding Mr. Meyers’s conduct before, during, and
after he stabbed Potschaider. Mr. Meyers’s mother testified that Potschaider put
Mr. Meyers in a chokehold and that after she tried to separate them, Mr. Meyers
retrieved a knife from the kitchen, approached Potschaider and said he was going to
kill him. Ct. App. Decision 5. Kevin Schutz, a friend of Mr. Meyers, also testified
that Mr. Meyers grabbed a knife from the kitchen, yelled that he was going to kill
Potschaider, and stabbed Potschaider by swinging the knife four or five times. Id.
Mr. Meyers testified as well and stated that he remembered grabbing the knife and
stabbing Potschaider, that he called 911 and asked law enforcement whether
Potschaider had lived when they arrived, and that he had been concerned about the
consequences he would face if Potschaider died. Ct. App. Decision 6.
Mr. Meyers contends that his after-the-fact conduct of calling 911 and asking
how Potschaider was doing negates the utter disregard element of first-degree
reckless homicide. The Court of Appeals correctly explained, however, that “a
defendant’s mitigating conduct does not necessarily preclude a finder of fact from
finding, beyond a reasonable doubt, that the defendant acted with utter disregard
for human life.” Ct. App. Decision 4. Because it is up to the trier-of-fact to decide the
weight and credibility to give evidence presented at trial, “where more than one

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 8 of 18 Document 23

V

reasonable inference can be drawn from the facts, we must adopt the inference that
supports the finding made by the jury.” Id. at 4-5. The Court of Appeals did just
that. It found that it was reasonable for the jury to infer from testimony that
Meyers only asked if Potschaider had died out of concern for the charges he faced,
and that Meyers acted with utter disregard when he stabbed Potschaider repeatedly
in the torso. Ct. App. Decision 7.
Sure, the Court of Appeals is incorrect to say that Mr. Meyers stabbed
Potschaider repeatedly in the torso—the record shows that Potschaider was stabbed
in the buttocks area, left elbow area, and chest, ECF No. 10-16:7—but Mr. Meyers
has failed to prove that no trier of fact would find him guilty beyond a reasonable
doubt based on the evidence before it. The evidence discussed above, when viewed
in the light most favorable to the prosecution, supports the Wisconsin Court of
Appeals’ determination.
... B. Ineffective Assistance of Counsel
Mr. Meyers next argues that he is entitled to relief under § 2254 because his
trial counsel rendered ineffective assistance of counsel in violation of his rights
guaranteed by the Sixth Amendment. Specifically, he argues that his counsel was
ineffective for failing to request a duty to retreat jury instruction; for failing to
request an instruction on second-degree reckless homicide; and for non-consensually

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 9 of 18 Document 23

*

■V

waiving his right to elicit testimony about Mr. Meyers’s knowledge of Potschaider’s
violent past.1
Criminal defendants have a constitutional right to the effective assistance of
counsel. Strickland v. Washington, 466 U.S. 668, 686 (1984). To succeed on an
ineffective assistance of counsel claim, a habeas petitioner must demonstrate (1)
“that counsel’s performance was deficient” and (2) “that the deficient performance
prejudiced the defense.” Id. at 687. A petitioner satisfies the first prong if he
demonstrates that his “counsel’s representation fell below an objective standard of
reasonableness.” Id. at 687-88. To satisfy the second prong, a petitioner must
demonstrate a “reasonable probability” that absent counsel’s errors, “the result of
the proceeding would have been different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” Id. at 694. “[Cjourts need not
address both prongs of Strickland” if the petitioner makes an inadequate showing
as to one. See Atkins v. Zenk, 667 F.3d 939, 946 (7th Cir. 2012) (citing Strickland,
466 U.S. at 697).
“Judicial scrutiny of counsel’s performance must be highly deferential.”
Strickland, 466 U.S. at 689. On habeas review, “[t]he question ‘is not whether a
federal court believes the state court’s determination’ under the Strickland
standard ‘was incorrect but whether that determination was unreasonable—a

1 In his Brief in Support of Petition for Writ of Habeas Corpus, ECF No. 11 at 25-28,
Mr. Meyers also claims that his counsel was ineffective for failing to fix erroneous
jury instructions on self-defense; however, Mr. Meyers concedes that this claim is
unexhausted and asks the Court to allow him to proceed on his exhausted claims.
ECF No. 17 at 15.

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 10 of 18 Document 23

substantially higher threshold.’” Knowles u. Mirzayance, 556 U.S. Ill, 123 (2009)
(quoting Schriro v. Landrigan, 550 U.S. 465, 473 (2007)). Thus, when a Strickland '
claim is evaluated under § 2254(d)(1), the standard of review is said to be “doubly
deferential.” See Mirzayance, 556 U.S. at 123 (citing Yarborough u. Gentry, 540 U.S.
1, 5-6 (2003) (per curiam)).
In analyzing all three of Mr. Meyers’s ineffective assistance of counsel claims,
the Wisconsin Court of Appeals applied the well-established standards set forth in
Strickland. See Ct. App. Decision 2. Thus, its decision was not contrary to federal
law. The remaining question for each claim then is whether the court reasonably
applied Strickland to the facts or instead based its decision on unreasonable factual
determinations. For the following reasons, Mr. Meyers is not entitled to relief on
any of his ineffective assistance of counsel claims.
a. Whether trial counsel provided ineffective assistance by failing
to request a duty-to-retreat jury instruction at trial
-1",

In making his ineffective assistance of counsel argument, Mr. Meyers first
claims that his trial counsel should have requested the duty-to-retreat instruction,
Wisconsin Jury Instruction-Criminal 810 (J I-CRIM 810), to be read to the jury.
Pet’r’s Br. 13. JI-CRIM 810 provides:
There is no duty to retreat. However, in determining whether the defendant
reasonably believed the amount of force used was necessary to prevent or
terminate the interference, you may consider whether the defendant had the

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 11 of 18 Document 23

-»

opportunity to retreat with safety, whether such retreat was feasible, and
whether the defendant knew of the opportunity to retreat.
Wisconsin Jury Instructions—Criminal 810 (2001),
Mr. Meyers argues that his counsel performed deficiently by failing to
request the jury instruction on the duty to retreat because “no competent lawyer
would avoid informing this to the jury when self-defense is the defense [to the
crime].” Pet’r’s Br. 16. According to Mr. Meyers, if the duty-to-retreat instruction
had been given, the jury “may have concluded that because Meyers did not provoke
the attack, that he also did not have to exhaust all other reasonable means of
escape before resorting to deadly force.” Pet’r’s Br. 16. Mr. Meyers maintains that
he was prejudiced by his counsel’s ineffectiveness because if the instruction were
requested, then the jury could have determined that his actions were justified by
self-defense and then concluded that he did not act with utter disregard for human
life, an essential element of first-degree reckless homicide. Id.
The Court of Appeals rejected Mr. Meyers’s argument, reasoning that it was
rational trial strategy for counsel not to request the duty-to-retreat instruction. Mr.
Meyers’s trial counsel testified that he chose not to request the instruction because
“he didn’t want to draw any attention to the fact that [Meyers] could have retreated
even if there was no duty to do so.” Ct. App. Decision 8. In light of this testimony,
Mr. Meyers’s claims cannot stand, because “strategic choices made after thorough

■

f.

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 12 of 18 Document 23

J
investigation of the law and facts relevant to plausible options are virtually
unchallengeable.” Strickland, 466 U.S. at 690.
It was objectively reasonable for the Court of Appeals not to second-guess
counsel’s strategic decision to refrain from requesting the duty-to-retreat
instruction, particularly given the facts of the case, and the language in the
instruction that allows the jury to consider if Mr. Meyers could have retreated. Mr.
Meyers has failed to establish that the Court of Appeals’ decision was an
unreasonable application of Strickland, and he is therefore not entitled to relief on
this claim.
b. Whether trial counsel was ineffective for failing to request an
instruction on second-degree reckless homicide
Mr. Meyers next argues that his trial counsel provided ineffective assistance
by failing to request an instruction on second-degree reckless homicide at trial.
Specifically, Mr. Meyers claims that because his attorney did not adequately discuss
with bim the lesser charge at trial, his attorney’s performance was deficient and
prejudicial because, “if given the choice at trial, Meyers would have wanted the jury
to be instructed on second-degree reckless homicide.” Pet’r’s Br. 20. A criminal
defendant is entitled to a lesser-included offense instruction when reasonable
grounds exist in the evidence for acquittal on the greater offense. State v. Foster,
191 Wis. 2d 14, 23 (Wis. Ct. App. 1995). Because the decision to request a lesserincluded offense instruction is so important to the outcome of the case, “the initial
duty of defense counsel to confer with the client regarding a lesser-included offense
request is recognized by the ABA Standards for Criminal Justice 4-5.2(a)(i). State v.

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 13 of 18 Document 23

r
-J
Ambuehl, 145 Wis. 2d. 343, 355 (Wis. Ct. App. 1988). The decision whether to
request a lesser-included offense instruction, like the decision to enter a plea, must
be made by the defendant. See Id.
The Wisconsin Court of Appeals declined to address the “deficient
performance” prong of the Strickland standard and rejected Mr. Meyers’s claim
because he failed to establish that he was prejudiced. Ct. App. Decision 8; See
Strickland, 466 U.S. 668 (holding that a court need not first determine whether
counsel’s performance was deficient before examining the prejudice suffered by the
defendant as a result of the alleged deficiencies).
To prove prejudice, “the defendant must show that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding
* .V

would have been different. A reasonable probability is a probability sufficient to
undermine confidence in the outcome.” Id. The Court of Appeals reasoned that
because the evidence supported the conviction for first-degree reckless homicide,
Mr. Meyers failed to show that an instruction on second-degree reckless homicide
would have changed the outcome. As such, Mr. Meyers failed to prove there was a
reasonable probability of a different result.
Mr. Meyers counters that he would not have been convicted of the greater
offense of first-degree reckless homicide because he did not show utter disregard for
life. See Pet’r’s Br. 19-20. As discussed above, the Court of Appeals found that the
evidence was sufficient for a jury to find that Mr. Meyers did act with utter
disregard for human life. Because no reasonable grounds for acquittal on the

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 14 of 18 Document 23

<?■

J

greater offense existed in the evidence, the Court of Appeals reasonably concluded
that Mr. Meyers was not prejudiced when his counsel failed to request the
instruction on the lesser-included offense of second-degree homicide. Mr. Meyers
therefore failed to meet his burden of proving that the Wisconsin Court of Appeals’
decision was contrary to or an unreasonable application of Strickland.

c. Whether trial counsel was ineffective for waiving the right to
elicit testimony about Meyers’s knowledge of Postschaider’s
violent past
Finally, Mr. Meyers claims that his trial counsel was ineffective for waiving
his right to elicit testimony about his knowledge of victim Potschaider’s violent
history. Mr. Meyers grounds his claim in McMorris v. State, in which the Wisconsin
Supreme Court held that when the issue of self-defense is raised in a prosecution for
assault or homicide and there is a factual basis to support such defense, the
defendant may offer proof of prior specific instances of violence on the part of the
victim, if known at the time of the incident. See McMorris v. State, 58 Wis. 2d 144,
152 (1973).
Mr. Meyers’s attorney informed the prosecutor before trial that the defense
had elected not to offer any McMorris-type evidence. Pet’r’s Br. 21. According to Mr.
Meyers, this waiver of the right to offer proof of Potschaider’s violent past rendered
his counsel’s performance deficient because “at a minimum, trial counsel had an
obligation to consult with Meyers about the strategic decision before waiving his
right to explore prior bad acts of the victim.” Pet r s Br. 22. He maintains that he
&

was prejudiced by his counsel’s performance in this regard because if the jury was

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 15 of 18 Document 23

«?
•i

properly informed, it “may have believed that Meyers’s knowledge of Shon’s violent
past influenced his state of mind, and concluded Meyers acted lawfully in selfdefense.” Id.
The Court of Appeals rejected Mr. Meyers’s argument, concluding that
counsel’s strategic decision not to introduce McMorris-type evidence was
reasonable. Ct. App. Decision 10. Mr. Meyers’s attorney testified that he felt the
defense would be successful without introducing evidence that Mr. Meyers knew of
Potschaider’s violent past because he did not want it to appear to the jury that
Meyers intended to kill Potschaider because he “had an axe to grind.” Ct. App.
Decision 9.
As previously stated, “strategic choices made after thorough investigation of
■,'T

the law and facts relevant to plausible options are virtually unchallengeable.”
Strickland, 466 U.S. at 690. It was therefore objectively reasonable for the Court of
Appeals not to criticize counsel’s strategic decision refraining from offering proof of
prior specific instances of violence on the part of the victim. This is especially so
since there was given evidence that Mr. Meyers yelled that he wanted to kill
Potschaider. See Ct. App. Decision 5. Accordingly, Mr. Meyers is not entitled to
relief under § 2254 on this claim.

IV.

Conclusion
For the reasons abovementioned, this Court finds no basis upon which it may

properly find that Mr. Meyers is entitled to habeas relief based upon the claims
asserted in his Petition.
*

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 16 of 18 Document 23

1

V.

Certificate of Appealability
There is one final matter to address. “The district court must issue or deny a

certificate of appealability when it enters a final order adverse to the [habeas]
applicant.” See Rule 11(a) of the Rules Governing Section 2254 Cases in the United
States District Courts. A district court may issue a certificate of appealability “only
if the applicant has made a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2).
The Court finds that Mr. Meyers is not entitled to a certificate of
appealability. Mr. Meyers has not demonstrated “that jurists of reason could
• \?•

, 'r

disagree1 with the district court’s resolution of his constitutional claims or that
jurists could conclude the issues presented are adequate to deserve encouragement
to proceed further.” See Miller-El v. Cockrell, 537 U.S. 322, 327 (2003) (citing Slack
v. McDaniel, 529 U.S. 473, 484 (2000)). Of course, Mr. Meyers has a right to seek a
certificate of appealability from the court of appeals. See Fed. R. App. P. 22(b).
NOW, THEREFORE, IT IS HEREBY ORDERED that Anthony Gage
Meyer’s Petition for Writ of Habeas Corpus, ECF No. 1, is DENIED.
IT IS FURTHER ORDERED that this action is DISMISSED.
IT IS FURTHER ORDERED that a certificate of appealability is DENIED.
FINALLY, IT IS ORDERED that the Clerk of Court enter judgment
accordingly.

m

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 17 of 18 Document 23

&

Dated at Milwaukee, Wisconsin, this 27th day of March, 2019.
BY THE COURT:

s/ David E. Jones
DAVID E. JONES
United States Magistrate Judge

5

4>'

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 18 of 18 Document 23

■vr
*

•5-~

United States District Court
Eastern District of Wisconsin
ANTHONY GAGE MEYERS,
Petitioner(s),
JUDGMENT IN A CIVIL CASE
v.

Case No. 16-CV-249
JUDY P. SMITH,
Respondent(s).

.. □
5.

I

Jury Verdict. This action came before the Court for a trial by jury. The issues have been
tried, and the jury has rendered its verdict.
Decision by Court. This action came before the Court for consideration.

IT IS HEREBY ORDERED AND ADJUDGED that Anthony Gage Meyer’s Petition
for Writ of Habeas Corpus, ECF No. 1, is DENIED.

■£.

:t. :

IT IS FURTHER ORDERED that this action is DISMISSED.
IT IS FURTHER ORDERED that a certificate of appealability is DENIED.

Approved:

s/ David E. Jones
DAVID E. JONES
United States Magistrate Judge

Dated at Milwaukee, Wisconsin, this 27th day of March, 2019.
STEPHEN C. DRIES
Clerk of Court
s/ Tony Byal
(By) Deputy Clerk

v

Case 2:16-cv-00249-DEJ Filed 03/27/19 Page 1 of 1 Document 24

